OIG Investigative Reports, Richmond VA., September 18, 2014 - Mother and Daughter Plead Guilty In Student Aid Fraud Investigation
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT of VIRGINIA
NEWS
Mother and Daughter Plead Guilty In Student Aid Fraud Investigation
FOR IMMEDIATE RELEASE
September 18, 2014
RICHMOND, Va. – Donnica Crossland, of Washington, D.C., pleaded guilty today to making false statements to federal agents in connection with an investigation of student aid fraud.  Her daughter, Jamanda Crossland, pleaded guilty today to making false statements on student financial aid applications.
Dana J. Boente, United States Attorney for the Eastern District of Virginia;and Mark A. Smith, Special Agent in Charge of the Technology Crimes Division of the Department of Education Inspector General’s Office, made the announcement after the pleas were accepted by United States District Judge Henry Hudson.
Donnica and Jamanda Crossland each face a maximum penalty of 5 years in prison, a fine of up to $250,000, and full restitution when they are each sentenced on December 12, 2014, by United States District Judge Henry Hudson.
In separate statements of fact filed by each defendant with their written plea agreements, Donnica and Jamanda Crossland admitted that Jamanda Crossland attended Virginia Commonwealth University (VCU), in Richmond, Virginia, as a student from 2009 to 2013.  Between 2009 and 2013, Jamanda Crossland was awarded $69,788 in U.S. Federal Education grants or loans, and $43,400 in tuition grants from the D.C. Office of the State Superintendent of Education, Government of the District of Columbia (“OSSE”) that were used to pay costs associated with attending VCU.  For each year Jamanda Crossland attended VCU between 2008 and 2013, she filed a Free Application for Federal Student Aid (FAFSA) with the U.S. Department of Education and reported her mother Donnica Crossland had no income.  During that same period, Jamanda Crossland filed applications for education grants with the D.C. OSSE, and in those applications stated her mother Donnica Crossland was not employed and received no income.  Jamanda Crossland also submitted a Federal Student Aid Verification worksheet containing false information to VCU and provided additional false documents in support of the worksheet, including: fraudulent copies of Form 1040 for her father, a forged letter from her father regarding his marital status, and a fake utility bill with a false address for her mother.
To facilitate her daughter Jamanda Crossland obtaining the OSSE grants for use at VCU, and another daughter obtaining the OSSE grants for use at a North Carolina college, on five separate occasions Donnica Crossland affirmed and signed these OSSE applications falsely stating that she was not employed and received no income, which were then submitted to the OSSE.  In fact, for each year during the period from December 2006 through December 2012, Donnica Crossland had a substantial income from employment at the U.S. Department of Transportation (“USDOT”), earning a total of $521,819 from her employment at the USDOT for that time period.
In 2013, the U.S. Department of Education’s Office of the Inspector General commenced an investigation of the Crossland aid applications and supporting documents.  On July 30, 2013, Department of Education Inspector General agents interviewed Donnica Crossland.  During the interview, attempting to conceal her involvement, Donnica Crossland knowingly and falsely stated that she had filled out some of Jamanda Crossland’s paperwork during the summer prior to her first year of college, but she had nothing to do with their financial aid applications thereafter.
On November 7, 2013, Department of Education Inspector General agents again interviewed Donnica Crossland.  During the interview, attempting to conceal her involvement, Donnica Crossland knowingly and falsely stated that she had no knowledge of any of the financial assistance applications submitted by Jasmine Crossland and Jamanda Crossland after 2007.
For restitution and sentencing purposes, Donnica and Jamanda Crossland stipulated that the loss amount resulting from their false statements and filings is $78,688.00.
This case was investigated by the U.S. Department of Education’s Office of the Inspector General.  Assistant U.S. Attorney S. David Schiller is prosecuting the case on behalf of the United States. A copy of this press release may be found on the website of the U.S. Attorney’s Office for the Eastern District of Virginia.  Related court documents and information may be found on the website of the District Court for the Eastern District of Virginia or on PACER by searching for Case Nos. 3:14-cr-115 and 116.
# # #
Top
Printable view
Last Modified: 09/22/2014
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
FERPA
Civil Rights
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
ED Offices
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov